                                      NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: I08020015
                                                                   11        Page 1of 1


    Several years after the expiration of a grant,' NSF sent a reminder to the grantee
    requesting a Final Project Report (FPR). The grantee told NSF it no longer employed
    the PI and didn't know where he was. The Program Manager (PM) located the PI and
    provided the PI's email address to the grantee. The grantee emailed the PI with the
    request for an FPR. The PI responded that he didn't recall doing any research on that
    grant, and was surprised the entire grant was spent, particularly since he left the
    grantee institution before the award expired. The grantee offered to provide the PI
    with a list of expenditures. Several weeks later, the PM received an FPR with little
    information, apart from listing a published paper.
    We wrote to the grantee and asked for a listing of expenditures under the grant. It
    provided a list of expenditures and noted it had overcharged the grant by $15k,which
    it would return. We reviewed the charges and noted a significant portion of them
    supported a student.2 Since the FPR did not list any student support, we wrote to the
    PI and the grantee asking for clarification of (a) when the PI left the grantee
    institution, (b) why there were charges after he left, and (c) whether the student's
    charges in relation to the grant. Both the PI and the grantee responded that the
    student's research was related to the grant. Both grantee and PI offered to amend the
    FPR to include the student's research. The student worked with the PI (including
    taking a trip to the PI's new institution) through his leave of absence, but then joined
    another group for her Ph.D.
    We interviewed the PM to learn if he agreed with the student's charges being relevant
    to the grant, and, if he thought they were, whether he wanted the FPR amended. He
    reviewed the FPR and the abstract to the student's Ph.D. thesis. He thought the
    student's research was good and that it was related to the grant. The PM believes the
    charges are relevant to the grant, and we concur. The grantee has returned the
    erroneous charges. Accordingly, this case is closed.




       1   (redacted).
       2   (redacted).
